FDIC’s Energy Management and Conservation Efforts
            Office of Congressional Relations and Evaluations/OIG




An Assessment of the Corporation’s Efforts to Enhance
Energy Efficiency and Reduce Consumption of Natural
      Resources at Its Headquarters Facilities
                     February 2, 2000
               Evaluation Report No. 00-001
                                                                 Contents
                                  4 Letter from the Director             2
                                  4 Improving Energy
                                    Management and
                                    Conservation in the
                                    Federal Sector                       4
                                  4 Assessing FDIC's Energy
                                    Management and
                                    Conservation Efforts                 6
                                  4 Measuring FDIC's Energy
                                    and Water Use                        7
                                  4 Measuring FDIC's Electricity
                                    Use                                  8
                                  4 Measuring FDIC's Natural
                                    Gas Use                              9
                                  4 Measuring FDIC's Water Use           10
                                  4 Saving Money and
                                    Conserving Resources
                                    at FDIC's Headquarters
                                    Buildings                            10
                                  4 Creating an Energy
                                    Management and
                                    Conservation Vision                  11
                                  4 Fostering Employee
                                    Awareness                            12
                                  4 Budgeting and Measuring
                                    Enhancements                         14
                                  4 Planning for Energy Efficiency       15
                                  4 Increasing Energy Efficiency         17
                                  4 Leasing Energy Efficient
                                    Buildings                            19
                                  4 Assessing FDIC's Recycling Efforts   19
                                  4 Enhancing FDIC's Energy
                                    Management and
                                    Conservation Efforts                 24
                                  4 Corporation Response and
                                    OIG Evaluation                       25
                                  4 Appendix I: Corporation
                                    Comments                             27
                                  4 Appendix II: Management
                                    Response to Recommendations          32
                           Congressional Relations and Evaluations/OIG


LETTER FROM THE DIRECTOR

Date: February 2, 2000

To:   Michael J. Rubino
      Associate Director, Acquisition and Corporate Services Branch,
      Division of Administration

Since the mid-1970s, energy management and conservation have
been priorities in the federal sector as a result of escalating energy
costs. Air and water pollution, global warming, and depletion of
natural resources have gained prominence over the years, including
the federal government's role in these areas given the federal
government is the largest energy consumer. FDIC has undertaken
numerous efforts over the years to reduce its energy and water
consumption and to recycle waste materials. Its efforts have included
capital improvements at its headquarters facilities, such as energy
efficient lighting, room occupancy sensors, and water efficient fixtures.
Other initiatives have also contributed to less energy usage such as
corporate support for telecommuting, video conferencing, car-pooling,
flexible work schedules, and electronic sharing of information. FDIC
continues to undertake efforts to reduce its energy and water usage
evidencing management's commitment in providing efficient facilities
and minimizing the Corporation's impact on the environment.

On average, FDIC annually expends over $2.1 million for utilities for its
three owned headquarters buildings at 550 17th Street, NW, and 1776
F Street, NW, in Washington, DC, and the Virginia Square complex in
Arlington, Virginia. We initiated this review to find out whether more
could be done to reduce FDIC's costs and to generally assess FDIC's
efforts in energy management and conservation. To do so, we
performed research of other agencies' efforts, arranged for an expert
from the Environmental Protection Agency to perform a general review
of FDIC's facilities, and reviewed FDIC's utility usage and costs.

In this report, we provided some thoughts on ways to enhance the
Corporation's efficiency efforts. Ultimately, the suggested
enhancements will help to further reduce FDIC's costs and have a
positive impact on the environment. We discussed:

4 Creating an energy management and conservation vision at FDIC
4 Fostering employee awareness
4 Budgeting and measuring enhancements


                                                                        2
4   Planning for energy efficiency
4   Increasing energy efficiency
4   Leasing energy efficient buildings
4   Assessing FDIC's recycling efforts

Finally, we made 12 recommendations to DOA focusing on each of the
above mentioned areas for its consideration in improving FDIC's
existing energy management and conservation efforts.

On January 24, 2000, you responded to our recommendations. It was
clear from your response that DOA is committed to developing a model
Energy Management Program and has begun taking the necessary
steps to do so. Further, the response together with those steps
already taken provided the requisite elements of a management
decision for all 12 recommendations. Your written response is
included in its entirety in Appendix I. Appendix II presents our
assessment of your responses to the recommendations and shows that
we have a management decision for each of the recommendations.
We have enjoyed working with all corporate staff who helped us
complete our review and were receptive to the information and
suggestions we provided.




Stephen M. Beard
Director, Office of Congressional Relations and Evaluations
Office of Inspector General




                                                                     3
Improving Energy Management and Conservation in
the Federal Sector . . .

The production and use of energy causes environmental damage.
Emissions associated with fossil fuel combustion are linked to a variety
of serious lung diseases including asthma, emphysema, and cancer.
As a nation, billions are spent each
year trying to control this pollution.       fy 1994 Federal Energy Consumption
One strategy for pollution                                (DOE data)
prevention, the installation of
energy efficient technologies, can
actually reduce the cost of
environmental protection by
simultaneously lowering end users'              Jet Fuel   Electricity Natural Gas
energy bills and the emissions                  Diesel     Other       Fuel Oil
associated with energy use. Energy
efficiency can be a cost-effective strategy for reducing both
greenhouse gasses and acid rain. Other benefits include the avoidance
of increased energy supply such as construction of new power plants
and reduction in the depletion of non-renewable resources. In addition
to air pollution, energy efficiency also addresses waste disposal, land
use, and water quality concerns.

The federal government is the largest user of energy in the United
States, according to the U.S. Department of Energy (DOE). In fy
1994, energy consumption stood at 1,200.9 trillion British thermal
units (Btu)1 comprised of jet fuel, electricity, natural gas, diesel, fuel
oil, chilled water and renewable energy. The government's total net
energy consumption in fy 1994 decreased 16.9 percent from
1,445.5 trillion Btu in fy 1985 base year. This reduction could satisfy
the energy needs for over 1 million households for a year.

In fy 1996, the federal government used 358.5 trillion Btu to provide
energy to approximately 500,000 buildings and facilities comprising
over 3.0 billion square feet of floor area. The government's energy bill
for buildings was $3.6 billion in fy 1996. Overall, the federal
government reduced its net energy consumption in buildings and
facilities by 15.2 percent in fy 1996 compared to fy 1985. These
measures are based on the 30 agencies which report their energy
usage to DOE. FDIC has not previously reported its usage to DOE.

Estimates show that federal sector expenditures for water and sewer
run between $.5 billion and $1 billion annually, and that the federal
1
 The quantity of heat required to raise the temperature of one pound of water by
one degree Fahrenheit.


                                                                                   4
government could save as much as $240 million per year by installing
water conservation measures. Expenditures and potential savings will
increase as the cost of water continues to rise; rates have already
increased 100 to 400 percent during the past 10 years, and the trend
is expected to continue.

The federal government's efforts to reduce energy consumption are
spearheaded primarily by DOE, the General Services Administration
(GSA), and the Environmental Protection Agency (EPA). DOE's Federal
Energy Management Program (FEMP) has a mission to reduce the cost
of government by advancing energy efficiency, water conservation and
the use of solar and other renewable energy. FEMP provides services
and skills to federal agencies to enable them to take the initiative to
undertake projects to use energy and water more efficiently, and to
promote the use of renewable resources.

FEMP also promotes interagency coordination through the Federal
Interagency Policy Committee and the Interagency Energy
Management Task Force that develop energy management policy,
identify customer needs, establish priorities, and coordinate
communication across federal agencies. During fy 1996, FEMP
conducted 55 training workshops and symposia for more than 1,700
attendees in the efficient use and conservation of energy, water, and
renewable energy in federal facilities. Other assistance provided by
FEMP includes an awareness campaign for use by federal agencies,
awards to federal energy managers and contributors for improving
energy management and conservation, and funding and contracting
mechanisms to improve efficiency.

GSA has a number of initiatives in place to help promote energy
efficiency and conservation through its Planet GSA program. GSA
offers thousands of environmentally-oriented products and services
and manages a nationwide recycling program for 643,000 federal
employees in 1,044 federal buildings. GSA is also incorporating
energy efficiency and conservation measures in the design,
construction, modernization and disposal of federal buildings. It also
procures alternative fuel vehicles for use by federal agencies.

EPA promotes waste prevention and energy efficiency though its
programs. EPA's WasteWi$e program promotes waste prevention by
looking at the whole waste production cycle and minimizing the
production of waste products at the beginning of the cycle. Another
one of its programs, Energy Star, helps to maximize energy
efficiency in commercial buildings and in office products.




                                                                         5
In addition to the agencies primarily responsible for implementing the
federal government's energy management and conservation efforts,
other agencies and the private sector have initiated their own efforts.
As such, FDIC has available to it a wealth of resources for its use in
the Corporation's energy management and conservation efforts.

FDIC's Division of Administration (DOA) is responsible for the
Corporation's energy management and conservation efforts. Currently,
sections within the DOA's Acquisition and Corporation Services Branch
handle facilities management, leasing, and acquisition. The Facilities
Management Section (FMS) contains the Space Planning and Design
Unit, Building Operations Unit (BOU), and the Safety and Health Unit
which handles the Corporation's recycling program. The Leasing
Section and Acquisitions Section handle their namesake functions.

The Corporation also, of course, needs the participation of its 7,000
plus employees in its efforts to help ensure success.


Assessing FDIC's Energy Management and
Conservation Efforts . . .
Given the benefits afforded by efficiently using energy and water and
the significant potential cost savings, OCRE initiated this review. The
objective of our review was to assess the Corporation's energy
management and conservation efforts with a particular emphasis on
identifying potential cost savings at FDIC's owned headquarters
buildings. These buildings consisted of 550 17th Street, NW,
Washington, DC; 1776 F Street, NW, Washington, DC; and Seidman
Center at Virginia Square, Arlington, VA. Specifically, we

4 looked at what the Corporation was spending for its utilities,2
  including electricity, natural gas, water, and sewage removal, and
  talked with the account representatives for FDIC at the utility
  companies;
4 arranged for an expert from the EPA to visit FDIC's owned
  headquarters building to provide an independent review as a means
  of identifying potential enhancements;
4 talked with individuals at FDIC and other agencies responsible for
  energy management and conservation;
2
  We attempted to obtain invoices back to 1985 as a means of creating a trend line
to measure the impact of the improvements that FDIC has made over the years.
Unfortunately, neither FDIC nor the utility companies had electric or natural gas
invoices going back to 1985. As such, we relied on the invoices ranging from 1993
to 1997 that we were able to obtain and annualized average monthly invoices to
arrive at annual expenditures.


                                                                                     6
4 reviewed pertinent FDIC policies; and
4 researched energy management and conservation efforts at other
  organizations.

Throughout our review, we communicated our results to individuals at
FDIC responsible for energy management and conservation so that
they could begin to take action. For example, we provided information
on DOE-sponsored training on energy management and conservation
to BOU, which took advantage of the training. To their credit, the BOU
individuals we dealt with wholeheartedly supported our efforts and
participated in the facilities walk-through. Their participation enabled
them to see the potential for achieving greater efficiency for the
Corporation and to provide real-time input on the suggestions made by
the EPA expert. We conducted our review from May to October 1999
according to the President's Council on Integrity and Efficiency's
Quality Standards for Inspections.


Measuring FDIC's Energy and Water Use . . .

             FDIC spends annually about $2.1 million for electricity,
                   gas, steam, water, and sewage removal at its three
                   owned headquarters facilities based upon our
                   calculations of available data. Its energy, water, and
                   sewage removal usage in these buildings translates
                   to about $1.29 per square foot. If we excluded water
                   and sewage                Energy and Water Use
removal service, it would be at                     (OIG calcuations
                                              based upon available data)
$1.21 per square foot. In
federal buildings, annual energy
                                      100%
costs were approximately $1.20
                                       80%
per square foot in 1996,
according to DOE’s Annual              60%

Report to Congress on Federal          40%

Government Energy                      20%

Management and                          0%
                                                 550    F Street Virginia Total
Conservation Programs.               Electricity   Gas    Water and Sewage   Steam
These energy consumption
figures include all forms of
energy used by buildings such as electricity, gas, and petroleum. As
such, FDIC's expenditures for headquarters buildings' energy
consumption are within 1 percent of typical federal facilities energy
expenditures.




                                                                                 7
FDIC's headquarters buildings primarily use electricity, but also use
steam and gas for its heating, ventilation, and cooling (HVAC) needs.
The Potomac Electric Power Company (PEPCO) and Virginia Power
Company provide FDIC's electricity needs. Washington Gas provides
FDIC with natural gas for heating and GSA provides FDIC steam for
heating as well. The District of Columbia Water and Sewer Authority
and the Arlington County, Virginia, Utility Services Office, provide
municipal water service and sewage removal for the buildings within
their jurisdictions. FDIC also uses a diesel fuel as a back up power
source for the Seidman Center. It does not currently use any
alternative energy sources or renewable energy at it owned
headquarters buildings.


Measuring FDIC's Electricity Use. . .

                 On average, FDIC's electricity usage at its three owned
                 headquarters buildings decreased by 9 percent over the
                  last 4 to 6 years.3 A graphical look at the individual
                 buildings revealed where the electricity consumption
                 changes occurred. The 550 Building had a 26 percent
                 decrease in electricity usage from the 1993 base year.
Electricity usage at
the F Street building                                  Change in Annual Electricity Usage
increased by                                           (OIG calculations based upon available data)

6 percent from 1993.
For Virginia Square,                             100,000
less than a 1 percent
                                    Btus/square foot




                                                       80,000
decrease occurred in
electrical usage when                                  60,000

comparing 1995 and                                     40,000
1998 usage.                                            20,000

                                                          -
The graph also                           Base Year           1998
showed the relative
efficiency and                      Virginia Square F Street 550 Building

intensity of electricity
usage in the three buildings. Virginia Square used the most electricity
at 73,972 Btus/square foot annually. The F Street building used the
least electricity, 61,723 Btus/square foot annually, or about
17 percent less electricity than Virginia Square. Finally, the

3
  Many of FDIC's energy efficiency improvements occurred in prior years for which we were unable to
obtain adequate utility data, thus limiting our ability to measure the impact on electricity usage resulting
from the improvements. Also, our calculations were based upon actual energy usage and did not take into
account the numerous variables that can impact energy usage both positively and negatively, such as
changes in the weather, number of employees, and number of electrical devices like computers.



                                                                                                          8
550 building used about 9 percent less electricity than Virginia Square
and about 9 percent more electricity the F Street building.

We also compared electricity usage by FDIC's headquarters buildings
against other organizations' building electricity usage. According to
electricity usage statistics published by DOE's Energy Information
Administration (EIA), office buildings typically use about 41,626 Btus
per square foot in electricity on a median basis based on 1995 data.
Our calculations show that for 1995, FDIC used 69,969 Btus per
square foot. Thus, FDIC's electricity usage is about 68 percent higher
than the EIA's office building consumption figures. For 1998, FDIC's
average usage for the three buildings was 67,649 Btus per square
foot, or 63 percent higher than EIA's figure.


Measuring FDIC's Natural Gas Use . . .

              Only Virginia Square used natural gas for heating while the
              550 building used steam and the 1776 F Street building used
              electricity. Natural gas was used at both the Virginia Square
             and 550 building kitchens.

As shown in the graph,          Change in Natural Gas Consumption
FDIC used 21,239 Btus          (OIG calculations based upon available data)
per square foot in
1995 and 19,723 Btus
                              22,000
in 1998 for a reduction
                                     Btus/square foot




                              21,000
of 7 percent. Part of
the lower usage can be        20,000

attributed to FDIC            19,000
shutting off the boilers      18,000
during the summer             17,000
months at Virginia            16,000
Square. Also, FDIC                      1995      1996     1997      1998
used 38 percent less
natural gas than the
typical office building
based on data
published in DOE's
Federal Energy Management Report for 1995. It is important to note
that deregulation has allowed FDIC to choose its natural gas provider.
In 1997, FDIC negotiated with Washington Gas Energy Services and
reduced its cost per therm4 from $.60 to $.375, which lowered its
overall costs by 38 percent. Effective October 1, 1999 FDIC
4
    A unit of heat equal to one hundred thousand Btus.


                                                                              9
renegotiated its rate to $.335 per therm. This was a further reduction
of 11 percent and showed a commitment to reducing costs.


Measuring FDIC's Water Use . . .

             FDIC consumed 38,225,000 gallons of water in 1997 at its
              headquarters owned facilities. In 1998, the consumption
               was down 17 percent to 31,748,000 gallons. The
            decrease may be the result of recently made efficiency
        improvements wherein DOA has installed sensors in Virginia
         Square restrooms. DOA also plans to reduce water usage at its
        other headquarters buildings by installing water efficient
fixtures.

We contacted the EPA’s
Water Alliances for Voluntary                   Change in Water Consumption
Efficiency (WAVE) program                           (OIG calculated based on available data)
which offers guidelines on
water related management.                      40
The program manager
                                 Millions of
                                  Gallons




                                               30
stated that there is no
readily available standard for                 20

federal office buildings, but                  10
did suggest the FDIC obtain                    0
                                                        1997            1998
water analysis software to
perform an independent self-
assessment.



Saving Money and Conserving Resources at FDIC's
Headquarters Buildings . . .

                 Since at least 1989, FDIC has implemented a number
                    of capital improvements to enhance energy
                      management and conservation in its owned
                       headquarters facilities. These improvements
                     have resulted in increased energy efficiency and
                    water conservation as shown by the previous
                    graphs for electricity, gas, and water consumption.
                    Management continues its energy management and
conservation improvements and has new projects in process, including
facilities enhancements and a new recycling directive.




                                                                                               10
Our review identified the following additional ideas to save money and
conserve natural resources:

ü   creating an energy management and conservation vision
ü   fostering employee awareness
ü   budgeting and measuring enhancements
ü   planning for energy efficiency
ü   increasing energy efficiency
ü   leasing energy efficient buildings
ü   assessing FDIC's recycling efforts
ü   procuring "green" products


                   Creating an Energy Management and
                   Conservation Vision . . .

                    Many energy management and conservation laws
                   and executive orders have been implemented in the
                  federal sector over several decades. These laws and
executive orders became the basis for agency energy management
and conservation programs. However, given FDIC's unique status as
an independent government agency, certain laws and executive orders
may or may not apply. Management indicated to us its interest in
voluntarily complying with those laws and executive orders for which
FDIC does not have to comply. Management's actions again evidence
its interest and support in making FDIC stand out in its energy
management and conservation efforts and, during our review,
management met with counsel to discuss the laws and executive
orders. We previously provided management a summary of the laws
and executive orders under separate cover.

One of the more recent executive orders is Executive Order 12902,
Energy Efficiency and Water Conservation at Federal Facilities, issued
March 8, 1994. One of the highlights of the executive order was to
establish a 30 percent energy reduction goal for the year 2005 based
on agencies' 1985 energy usage. It also required agencies to conduct
energy and water surveys of federal facilities and leased facilities,
ensure that new space designs met or exceeded energy performance
standards, and procure energy efficient products. However, as can be
seen by the requirements of the executive order, it effects various
functional areas of agencies such as facilities management, facilities
design, and procurement.

In our discussion with another agency, fragmentation was cited as a
stumbling block in its program. The respondent suggested that ideally


                                                                     11
all energy management and conservation efforts should be integrated.
GSA has already created an external vision and program to integrate
the various functions. Its solution was to create a cohesive program,
namely Planet GSA, with the program offerings being neatly captured
in "buying green, building green, driving green, and saving green." As
indicated by its slogan, the program deals with acquisition, facilities
design, transportation, and saving money.

On June 3, 1999, Executive Order 13123 "Greening The Government
Through Efficient Energy Management" superceded Executive Order
12902. Executive Order 13123 recognized the fragmentation and
addressed the situation by having agencies designate a senior official
to ensure that energy management and conservation goals are met
and to enhance interagency communication. It also created intra-
agency energy teams consisting of individuals from procurement,
legal, budget, management, and technical experts to expedite and
encourage agencies in their energy management and conservation
efforts.

Creating an overall vision and program at the FDIC could provide
numerous benefits such as showing the Corporation’s commitment,
increasing employee awareness and participation, and facilitating
coordination and communication. As previously mentioned throughout
the report, FDIC has established some policy in functional areas such
as facilities design and recycling, but not in all areas that have an
impact on energy management and conservation.



Fostering Employee Awareness . . .

                    The federal government, as the largest single
                    employer in the United States, has an opportunity
                    to set an example for the nation by conducting
                    employee energy awareness programs. FDIC did not
                    have an employee awareness program in place
                    covering the many facets of energy management
                    and conservation at its headquarters facilities. In
certain ways, FDIC did support awareness through the recycling
program, video conferencing, car-pooling, conference calling, and
flexible work schedules. An awareness program could further FDIC’s
current efforts by improving recycling and also generate additional
benefit by reducing Corporate costs for utilities and supplies. Other
agencies participate in the federal government-wide energy awareness
campaign held every October.




                                                                         12
Awareness programs reach beyond the work place to positively impact
employees’ everyday activities. Examples of other agency awareness
actions include:

4 Supporting public transportation
4 Providing incentive awards to facilities managers and others who
  contribute to energy efficiency at the agency
4 Monthly articles on energy conservation strategies and examples of
  how employees can contribute
4 Telecommuting
4 Awareness package for managers
4 Employee briefings

Besides the actions taken
                             Excerpts from DOE's Save Your Energy: 8 Simple
by individual agencies,
                             Things You Can Do
FEMP sponsors an energy      • Use compact fluorescent lamps to save energy
awareness campaign in            and cut pollution.
which other agencies may     • For three copies or less, use the printer; for more,
partake. The campaign            use the copier.
                             • Using the "stand-by" button on your copier will
assists federal energy           lighten your energy load by 70%.
managers by spreading the    • A computer monitor uses 60 watts of power; turn it
word about energy                off if you leave for more than 10 minutes.
efficient practices and      •   Recycling paper reduces water use by 60%,
                                 energy by 70%, and cuts pollution in half.
products. It also helps      • Relax and use mass transit; use 25 times less
instill energy efficiency as     energy.
a basic value among          • Airplanes burn 70 gallons of fuel a minute. Travel
federal employees. It            by a real super-saver--teleconference.
features artwork, posters,
and promotion of Energy Champions—federal employees who are
helping agencies save energy and money with their efforts. The
awareness campaign also features energy savings tips.

Creating awareness could result in sizable savings of resources. For
example, the Department of Justice is trying to get employees to use
both sides of paper when producing reports and copying. Such a
simple action could cut paper use substantially.

Employee awareness would have a positive impact in both owned and
leased buildings. Energy, water, and supplies are used in all facilities
and reductions in them will result in Corporate cost savings. Also, an
awareness program is relatively inexpensive to implement in light of
FEMP’s available resources.




                                                                                  13
Budgeting and Measuring Enhancements . . .

            Establishing a budget and performance measures could be
            beneficial. Currently, FDIC includes energy efficiency
            enhancements as part of capital improvements; it did not
            have a budget for energy management and conservation
            activities. Unlike FDIC, appropriated government
            agencies submit their agency budgets to the Office of
            Management and Budget annually and Executive Order
13123 now requires that appropriated agencies specifically request
funding necessary to achieve the goals of the executive order such as
reducing energy consumption by 30 percent by 2005 and by
35 percent by 2010. According to the executive order, budget
submissions shall include the costs associated with

4 Encouraging the use of, administering, and fulfilling agency
  responsibilities under Energy-Savings Performance Contracts, utility
  energy efficiency service contracts, and other contractual platforms
  for achieving conservation goals;

4 Implementing life-cycle cost-effective measures;

4 Procuring life-cycle cost-effective products; and

4 Constructing sustainably designed new buildings.

The use of a specific energy management and conservation budget
could help in the identification and prioritization of efficiency projects
and in the tracking of energy-specific projects.

DOA's 1999 Annual Performance Plan did not include operational
objectives that specifically address energy management and
conservation. It did include an operational objective that states
"Quality Building Systems Are Maintained So That Employees Can
Work At Their Optimum Level." The related Annual Performance Goal
for that objective includes upgrades to optimize efficiency. Specifically
noted are installing a Data Center Power Monitoring System at Virginia
Square and modernizing the F Street and 550 building lobby and
elevators. A more specific operational objective could be established
to highlight the importance of energy management and conservation
and ensure that goals are developed. These goals would allow DOA to
readily measure its annual energy management and conservation
achievements.




                                                                             14
Planning for Energy Efficiency . . .
            FDIC’s current guidance on facilities design is contained in
             the Facilities Design Guide, dated September 15, 1998.
             The guide states FDIC’s policy on energy management and
            conservation and identifies design considerations for its
        facilities such as energy efficient lighting and room occupancy
sensors. The guide evidences FDIC management’s awareness and
commitment to minimizing the Corporation’s impact on the
environment when providing a workplace for its employees. DOA’s
stated goal in the guide is “to ensure that FDIC’s facilities are properly
designed, space efficient, safe, environmentally sound . . . .” To do
so,
      FDIC supports energy           Excerpts from EPA’s GREEN BUILDINGS
      conservation and will,         VISION AND POLICY STATEMENT
      where feasible, attempt to
                                     Agency facilities, both new and existing, should
      design energy efficient        serve as models for a healthy workplace with
      space. Mechanical,             minimal environmental impacts. To achieve this
      electrical, and plumbing       goal, EPA will utilize both innovative, state-of-
      systems shall be primary       the-art technologies and a holistic approach to
                                     design, construction, renovation, and use.
      candidates in designing        Important considerations in the design,
      energy efficient systems.      construction and use of EPA-owned and –
                                          leased facilities include the following:
During our evaluation, we                 § Site planning that utilizes resources
                                              naturally occurring on the site such as solar
identified information from                   and wind energy, natural shading, native
other federal agencies on                     plant materials, topography and drainage.
energy management and                     § Location to optimize the use of existing
                                              infrastructures and transportation options,
conservation programs and
                                              including the use of alternative work modes
facilities design. GSA, DOE,                  such as telecommuting and
and EPA have detailed guidance                teleconferencing.
and experience in improving               § Use of recycled content and environmentally
                                              preferable construction materials and
building efficiency.                          furnishings, consistent with EPA
                                              Procurement Guidelines.
In 1998, GSA began a program              § Minimization of energy and materials waste
called Planet GSA with one of its             throughout the buildings life cycle, from
                                              design through demolition or reuse.
aims focusing on “building                § Design of the building envelope for energy
green.” Building green includes               efficiency.
retrofitting buildings, but also          § Use of materials and design strategies to
includes designing and                        achieve optimal indoor environmental
                                              quality, particularly including light and air, to
constructing sustainable                      maximize health and productivity.
buildings. Sustainable design             § Management of water as a limited resource
means creating environmentally                in site design, building construction and
                                              building operations.
sound and resource-efficient              § Utilization of solar and other renewable
buildings. It includes the site’s             technologies, where appropriate.
accessibility to mass transit,
pedestrian pathways, and


                                                                                             15
bicycle paths; landscaping with indigenous plants to minimize upkeep
and dependence on water, herbicides, and pesticides; and reducing
waste generated during construction. It also means using recycled
content products such as insulation, cement and concrete, latex paint,
and carpeting made from plastic bottles in the building itself. GSA’s
Facilities Standards for the Public Buildings Service contains the
agency’s guidance on building design and incorporates elements
related to energy efficiency and conservation.

DOE's FEMP is the lead agency in several federal “greening” initiatives.
"Greening" is achieved though the application of energy-efficient
technologies and environmentally preferred or environmentally friendly
products and practices in a multiyear, multidisciplinary project
designed to improve energy efficiency, reduce waste, improve worker
productivity, and save money throughout the facility.

FEMP has developed a guide, entitled Greening Federal Facilities, to
highlight practical actions that facility managers can take to save
energy and money, improve comfort and productivity of employees,
and benefit the environment. Procuring Low-Energy Design and
Consulting Services: A Guide for Federal Building Managers,
Architects, and Engineers provides items that should be considered
when designing buildings for low-energy consumption. The guide
emphasizes the need to define energy performance targets and
choosing design professionals with who are highly supportive of energy
efficient design.

EPA also has a Green Buildings Program that incorporates principles of
energy and resource efficiency, applies waste reduction and pollution
prevention practices, ensures unpolluted indoor air, and uses natural
light as a light and heat source whenever possible. EPA’s Green
Buildings Vision and Policy statement represents a holistic, systems
approach to sustainable building design, renovation, and maintenance.

Another agency also has significant experience in designing efficient
facilities. The Department of the Navy practices sustainable building
design and has annual expenditures of $3 billion a year on facility
construction.




                                                                        16
Increasing Energy Efficiency . . .

              As shown earlier, FDIC's efforts to increase building
              efficiencies have reduced electricity, gas, and water
              usage. Specific examples of FDIC's efforts included
              installing compact fluorescent lamps, occupancy sensors,
              solar window film, smaller chillers, and day lighting
              controls. Management continues to look at innovative
ways of using resources wisely and is even considering using
groundwater at Virginia Square to water the seven acres of grass
rather than using municipal water. In light of the summer 1999
drought, such an action shows management's environmental
awareness.

To help us identify whether further options exist for FDIC to improve
building efficiency and reduce costs at its owned headquarters
buildings, we arranged for an EPA expert to review the facilities. In
pursuing other ways to save money for the Corporation, we discussed
FDIC's rates with current utility electricity and natural gas vendors and
contacted an alternative utilities supplier. Furthermore, we
recalculated invoices and compared the rates billed with the tariff rates
to determine invoice accuracy.

The expert from the EPA visited each building and discussed the
buildings’ operations with Facilities Management personnel at no cost
to the FDIC. Overall, the expert seemed favorably impressed with
energy management and initiatives undertaken by FDIC's facilities
management personnel. Nevertheless, based on those discussions,
the representative submitted a list of ideas to us which we in turn
forwarded to Facilities Management for its consideration. Management
is currently considering the suggestions, including, for example, using
the generators at Virginia Square to provide electricity during FDIC's
peak energy usage periods in which utility-provided electricity is the
most expensive. Specific suggestions made by the EPA expert
included

4 enhancing an already strong lighting program at Virginia Square
  with even more energy efficient fixtures;
4 installing a comprehensive energy management system for the 550
  17th Street and 1776 F Street buildings;
4 adding office and room monitoring to the energy management
  system at Virginia Square, if not already done;
4 installing variable air volume/variable frequency drives;




                                                                       17
4 co-generating power by using a fuel cell at the DC buildings or for
  the Virginia Square expansion;5
4 using the back-up power at Virginia Square during high demand
  periods and not adding additional back-up power for the expanded
  Virginia Square;
4 considering installing renewable energy technologies such as
  photovoltaics, solar hot water preheating, and solar domestic hot
  water, as examples;
4 evaluating the necessity of running the HVAC 24 hours a day, 7
  days a week;
4 reviewing kitchen equipment and laundry facilities at Virginia
  Square to determine whether water conserving devices should be
  used; and
4 requesting guests at the Seidman Center prolong their use of linens
  and towels as a means of saving water.

During our discussions with the utilities' account representatives for
FDIC, they told us that FDIC had the best available rates and they
were less expensive than commercial rates. We requested that PEPCO
look into meter totalization, which combines meter readings for FDIC's
downtown buildings, so that FDIC could take advantage of any
discounts on higher volumes. The PEPCO representative we spoke
with stated that FDIC was not eligible for meter totalization because of
the non-contiguous nature of its downtown buildings. We also
contacted GSA to find out whether it could provide FDIC with utilities
through its area wide network agreements. While GSA could not help
us with our electricity rates, it could help us with our gas rates.
According to the GSA representative we spoke with, GSA would be
able to save FDIC about $28,000 annually.

The account representatives also provided us the tariff rates paid by
FDIC and information on their metering and billing processes. We
recalculated electricity and gas invoices on a sample basis to
determine whether monies could be recouped because of billing
inaccuracies. Our recalculations included verifying the rates billed by
the utility companies and the accuracy of the beginning and ending
meter balances as shown on the invoices. Our recalculations of a
sample of electricity and gas invoices did not reveal any material
errors.




5
 A fuel cell is an electrochemical cell in which the energy of a reaction between a fuel, as liquid hydrogen,
and an oxidant, as liquid oxygen, is converted directly and continuously into electrical energy.



                                                                                                          18
Leasing Energy Efficient Buildings . . .

                While we did not focus on evaluating FDIC’s leased
                headquarters buildings, FDIC has taken a number of
                steps to increase energy efficiency in them, such as
              installing energy efficient lighting. FDIC leases buildings
             in whole or in part at 801 17th Street, NW, 1717 H Street,
            NW, 1700 Pennsylvania Avenue, NW, and 1730
Pennsylvania Avenue, NW. FDIC typically pays its pro rata share of
the buildings’ operating expenses, including its share of utility costs.

FDIC may be able to reduce its operating costs in leased buildings.
Executive Order 13123 seeks to promote federal leadership in energy
management and discusses model lease provisions. The executive
order states:

      Agencies entering into leases, including the renegotiation of
      leases or extension of existing leases, shall incorporate lease
      provisions or extension that encourage energy and water
      efficiency wherever life-cycle cost effective. Build-to-suit lease
      solicitations shall contain criteria encouraging sustainable
      design and development, energy efficiency, and verification of
      building performance. Agencies shall include a preference for
      buildings having the ENERGY STAR building label in their
      selection criteria for acquiring leased buildings. In addition, all
      agencies shall encourage lessors to apply for the ENERGY STAR
      building label and to explore and implement projects that would
      reduce costs to the Federal Government, including projects
      carried out through the lessors' Energy-Savings Performance
      Contracts or utility energy-efficiency service contracts.

FDIC typically chooses to be responsible for building-out leased space
so it has the opportunity to integrate energy efficient and water
conserving measures in its plans. FDIC leases more buildings than it
owns and leases about 105 properties nationwide. By leasing energy
efficient buildings and implementing energy efficiency measures,
reduced costs for the Corporation could result.



Assessing FDIC's Recycling Efforts . . .
            Recycling has been an environmental success story.
             Recycling, including composting, diverted 57 million tons
              of material away from landfills and incinerators in 1996,
              up from 34 million tons in 1990--a 67 percent increase in
             just 6 years. Benefits attributed to recycling include




                                                                            19
 4   reducing the need for new landfills,
 4   preventing emissions of many air and water pollutants,
 4   saving energy,
 4   supplying valuable raw material to industry,
 4   creating jobs,
 4   reducing greenhouse gas emissions,
 4   stimulating the development of greener technologies, and
 4   conserving resources for future generations.

FDIC has had a recycling program in place for some time and
continues with its program. Circular 3400.3, dated January 14, 1994,
replaced a previous directive and standardized the procedures for
collecting acceptable waste paper. Acceptable waste paper and
materials include white wastepaper, computer printout paper, copier
paper, newspaper, aluminum cans, and toner cartridges. Waste paper
is collected in desktop receptacles and in central receptacles near
copies or printers. Separate receptacles are set up for newspaper,
aluminum cans, and toner cartridges. FDIC is also in the process of
revising its current directive to bring it up to date. The draft directive
includes new procedures for the inspection of recyclables as a means
of verifying the contractors invoice, distribution of monies from
recycling waste, and recycling reminders.

We reviewed the quantity of waste paper being recycled at FDIC's
owned headquarters buildings using the account summary report
produced by the recycling contractor. Our focus was on waste paper,
given the amount of waste paper produced by the Corporation. At its
leased facilities, FDIC primarily relies on the landlords to carry out
recycling although the Corporation provides recycling receptacles.

On average, the Corporation recycled 145 tons of white paper
annually. The EPA has calculated that employees generally produce
about 3/4 pound of waste paper per day. For headquarters, this would
roughly translate to about 145 tons of paper being generated annually
and compares equally with the amount of paper being currently
recycled by the Corporation.

On average, FDIC has received about $4,000 per year for its white
paper. The program manager stated that the funds are used to offset
the costs of the program and are spent on items such as office
recycling containers. The recycling contract is a no cost contract,
meaning that the contractor is paid based on revenues received on the
sale of the recycled paper and materials picked up. The contractor
pays FDIC a percentage of the revenue.




                                                                        20
To take a closer look at recycling at the headquarters buildings, we
looked at the change in recycling tonnage from 1997 to 1998 and
compared performance by building. This
graph shows the changes in recycling                Recycling Performance
tonnage for 1997 and 1998:                             (OIG calculated)

                                                            80
ê 17% at the 550 building                                   70
ê 4% at the 1776 F Street building                           60

é 28% at the Virginia Square Building              Tons of
                                                              50
                                                              40
                                                  White Paper
                                                              30
As another means of measuring recycling                       20
                                                              10
performance, this graph shows a                                0
                                                                                                       1998

                                                                                                   1997
comparison of the amount of white paper                              550
                                                                              1776 F
                                                                   Building            Virginia
recycled per person by building and to an                                     Street
                                                                                       Square

average of the three buildings on an
annual basis.

In terms of percentage difference from the average:

é 17% at the 550 building                  Recycled Paper per Employee
é 2% at the F Street                              (OIG calculated)
  building
ê 11% at Virginia Square                   200
                                           150
Looking at the amount of            Pounds 100

paper recycled per square                   50
                                             0
foot provides similar results.                   550 F Street Virginia Average
It shows that about 1/2                         Building Building Square
pound of paper per person
was recycled at the 550 and F Street buildings. At Virginia Square,
about a 1/10 pound of paper per person was recycled. The nature of
the facilities at
Virginia Square,                 Recycled Paper per Square Foot
which includes the                          (oig calculated)
hotel, may explain
                                   0.50
the difference
                                   0.40
between the amount
                                   0.30
of paper recycled           Pounds
                                   0.20
there and the
                                   0.10
amounts recycled at
the downtown                        -
                                            550        F Street Virginia Average
facilities.                               Building Building       Square


Our research showed that more could be done to (1) prevent the
production of waste paper in the first place and (2) to increase the
recycling of waste paper.


                                                                                                  21
Waste prevention means using less material to get the job done.
Waste prevention methods help create less waste in the first place--
before recycling. Waste prevention yields numerous environmental
and economic benefits. By preventing waste and recycling, FDIC
would use fewer raw materials, thereby conserving natural resources,
minimizing energy use, and reducing pollution. Waste reduction also
saves companies money--through reduced purchasing and operating
costs, decreased storage costs, and increased recycling revenue. For
example, adjusting hauling services to reflect reduced volume of waste
can add up to tremendous dollar savings though

3 decreased hauler fees (FDIC currently pays about $136,000 a year
  to have regular refuse removed from the three owned headquarters
  buildings),
3 avoided disposal charges,
3 maximized recycling revenues, and
3 lower equipment maintenance and service costs.

An initial step in selecting
waste prevention goals is a
waste assessment. A
waste assessment is a
systematic way to identify
waste reduction
opportunities. These
actions include preventing
waste, purchasing recycled     Examples of Waste
and reduced-waste              Prevention Goals from EPA
products, and recycling
and composting waste           3 Establish a waste prevention policy
materials. A waste             3 Offer company newsletters on-line
assessment provides            3 Publicize waste prevention activities
several benefits                 through a new or existing
                                 newsletter
3 It establishes a better      3 Create green teams to brainstorm
  understanding of               waste prevention activities
  current purchasing,          3 Conduct waste reduction contests
  waste generation, and        3 Require each site to periodically
  waste disposal                 report on waste prevention,
  practices.                     recycling, and cost avoidance
3 It identifies potential      3 Establish a solid waste
  waste reduction options        measurement and reporting
  for evaluation.                program to evaluate the success of
                                 waste prevention efforts



                                                                         22
3 It establishes a baseline from which to measure the success of the
  waste reduction program.

Companies can use the data collected in a waste assessment to choose
the waste prevention goals most appropriate to their specific operating
practices.

Many major companies in the US, including those in the banking
sector, have embraced waste prevention. These success stories show
the extensiveness of waste prevention ideas.

Northeast Utilities initiated a pilot program to reduce nonessential and
duplicate pieces of bulk mail. By removing employee names from bulk
mailing lists, the program eliminated 42,000 pounds of third-class
mail.

BankAmerica established an employee hotline to answer questions on
recycling. In 1995, the hotline received over 400 calls.

Aetna Life and Casualty initiated an office supply and equipment
recapture program that saved $144,000 and nearly 130,000 pounds of
material in 1995.

Chysler Corporation is doing its part to help stimulate markets for
recyclables. In 1995, the company purchased over one million pounds
of 100 percent recycled content and computer and printer paper.

Anheuser-Busch corporate headquarters switched to reusable dishware
in the cafeteria conserving 8,000 pounds of polystyrene per year. This
change resulted in annual savings of $36,000 with no additional
manpower.

Freddie Mac reduced 30,000 pounds of paper in 1995 by changing
from folded single towels to paper towel rolls in bathrooms.

The Dupont Merck Pharmaceutical Company initiated a policy requiring
all advertising, promotional literature, letterhead, business cards, and
envelopes to be printed on recycled paper.

The Office of Thrift Supervision (OTS) participates in electricity
demand reduction during peak periods and receives rebates from
PEPCO for doing so.

Regarding FDIC's status on purchasing recycled content paper, the
paper currently used by the Corporation in printers and copiers does
not have a recycled paper content. We were told in an interview that


                                                                      23
recycled paper is more costly and lacks the quality of virgin paper. In
our interviews with representatives from the Department of Justice
(DOJ), OTS, Department of State, Department of Commerce, we
discussed the acquisition and use of recycled content paper. DOJ, OTS,
and State purchase recycled content paper, while Commerce does not
currently do so though plans are in the works. FDIC's Acquisition
Policy Manual does not address the purchase of supplies or other
materials with recycled content. Paper with recycled content can be
purchased from GSA or the Government Printing Office.

In addition to recycled content paper, GSA has partnered with EPA and
DOE to offer the federal community a broad range of energy efficient
products. In fact, GSA offers thousands of environmentally-oriented
products and services. GSA's Environmental Products Guide contains
over 3,000 items. Besides energy efficient office products, GSA offers
paints, cleaners, and other products that have been reformulated to be
less environmentally detrimental.



Enhancing FDIC's Energy Management and
Conservation Efforts . . .

FDIC’s improvements related to energy management and conservation
have benefited the Corporation as a whole. With a coordinated energy
management effort, the Corporation will both save resources and
reduce costs. DOA should consider:

1. Coordinating with the Legal Division to identify all laws and
   executive orders relating to energy management and conservation
   that affect Corporate functions and determine to which ones FDIC
   must comply and those with which it will voluntarily comply.
2. Establishing a task force involving all appropriate FDIC divisions to
   create an energy management and conservation vision and
   program for the Corporation.
3. Appointing a management official to serve as a focal point for
   energy management and conservation to ensure the visibility of
   FDIC's program.
4. Stimulating employee interest in energy management and
   conservation through an awareness program.
5. Developing a specific objective in the Annual Performance Plan that
   addresses improving energy efficiency and conservation at FDIC.
6. Creating an energy management plan to promote energy
   management and conservation and to measure expenditures and
   achievements.



                                                                      24
7. Revisiting the Facilities Design Guide to determine whether
    additional guidance would be useful to promote energy
    management and conservation during the facilities planning
    process.
8. Evaluating the feasibility of the specific suggestions made by the
    EPA expert to enhance energy management and conservation at
    FDIC's headquarters facilities.
9. Studying GSA's cost analysis for natural gas to determine whether
    GSA would be a less costly alternative than FDIC's current supplier
    and take appropriate action.
10. Promoting energy efficiency in its leased facilities by including a
    preference for Energy Star buildings which could result in reduced
    operating costs for FDIC.
11. Assessing the production of waste paper, aluminum and glass at
    headquarters to identify waste reduction opportunities and to
    establish baseline measures.
12. Increasing FDIC's acquisition of recycled content products and
    energy efficient products by establishing annual targets for their
    purchase.



Corporation Response and OIG Evaluation

On January 24, 2000, the Associate Director, Acquisition and
Corporate Services Branch, DOA, provided the Corporation's written
response to a draft of this report. The Associate Director's response
indicated that DOA is committed to developing a model Energy
Management Program, and will include many of the recommendations
made in this report. The response further indicated that DOA has
(1) established a performance goal in its Annual Performance Plan for
implementation of an Energy Conservation Program, (2) taken steps to
obtain the assistance of the Department of Energy's Federal Energy
Management Program, and (3) intentions to establish a 5-year plan
and begin implementing specific initiatives before the end of this year.
DOA's written response, together with actions it has already taken,
provides the requisites for management decisions on all twelve
recommendations.




                                                                      25
Regarding DOA's comment 2, the EIA data provided median energy
data based upon the principal building activity such as office, lodging,
and warehouse and storage. A median usage figure means that half of
the buildings EIA surveyed used less energy and the other half used
more energy than the median. Of the median data for the principal
building activity mentioned above, office usage was the highest and
was used in the comparison. The EIA data did not provide data center
energy usage. The mixed nature FDIC's Virginia Square operations, as
pointed out by DOA, could increase the building's energy usage
beyond the EIA-reported median.




                                                                      26
Appendix I: Corporation Comments



Federal Deposit Insurance Corporation
550 17th Street, NW, Washington, DC 20429                                    Division of Administration




                                            January 21, 2000



TO:                 Stephen M. Beard
                    Director, Office of Congressional Relations and Evaluations

FROM:               Michael J. Rubino
                    Associate Director, Acquisition & Corporate Services Branch

SUBJECT:            Response to Draft Report: An Assessment of the Corporation's
                    Efforts to Enhance Energy Efficiency and Reduce Consumption
                    of Natural Resources at its Headquarters Facilities

Attached are comments on the draft report dated December 20, 1999. I appreciate the
suggestions regarding improvements for our energy management program. Many of the
initiatives recommended will be implemented. We have established a performance goal in the
Division of Administration's Annual Performance Plan for implementation of an Energy
Conservation Program.

Steps have been taken to obtain the assistance of the Department of Energy's Federal Energy
Management Program. We intend to establish a five- (5) year plan and begin implementing
specific initiatives before the end of this year.

Please contact Marianne Jentilucci, Assistant Director, Facilities Management Section, at (202)
942-3299 if you have any questions or require additional information.

Attachment




                                                                                                          27
ATTACHMENT                                                                   January 21, 2000


DOA appreciates the efforts of the Office of the Inspector General in reviewing our program and
making recommendations for improvement. DOA is committed to developing a model Energy
Management Program, and will include many of the recommendations made in this Report.

1. FMS is working with the Department of Energy, Federal Energy Management Program
(FEMP) to develop baseline data to be used in tracking energy savings. It would be helpful to
have the raw data used by OIG in their calculations of energy usage and savings to compare to
the baseline data developed with FEMP. (reference Page 8, “Change in Annual Electricity
Usage”)

2. On Page 9 of the Report, the Office of Inspector General (OIG) compares FDIC Headquarters
buildings electricity usage to statistics published by the Department of Energy’s Energy
Information Administration (EIA). The Report, which combines all owned buildings, indicates that
FDIC’s electricity usage is significantly higher than typical office buildings. It appears that the
Report does not take into consideration the special use of the Virginia Square Seidman Center.
The Virginia Square complex includes a National Data Center, a National Training Center, and a
student residence. These are energy intensive functions that have a direct affect on electricity
usage. These types of activities are not typical to office buildings. It also is not clear whether the
mean used to compare to FDIC electricity usage includes buildings heated solely by electricity,
such as the 1776 F St. Building. If these factors were not considered it is very likely that the
Report overstates the variance of FDIC electricity usage.

3. FMS recognizes the importance of creating a vision for the FDIC Energy Management
Program, and will do this as part of the Program development. An interdisciplinary Task Force
will be established in March 2000 to assist in developing an integrated and comprehensive
Energy Management Program. (Reference Pages 11-12)

4. We have obtained legal opinions on most of the Laws and Executive Orders related to energy
conservation. The Executive Order 12902 referenced in the Report has been replaced by
Executive Order 13123. FDIC is not required to comply with Executive Order 13123. However
we recognize the problems related to fragmentation of programs, and plan to have an integrated
energy management program that meets many of the goals established in Executive Order
13123. The FDIC Energy Management Program will be modeled on FEMP guidelines, and will
be in compliance with the National Energy Conservation Policy Act (which we are required to
comply with). (reference Pages 11-12)

5. The FDIC Energy Management Program will focus on employee awareness and education.
We are planning educational activities for October 2000, in conjunction with our annual Recycling
Fair. We have requested assistance from FEMP in developing our employee awareness
program. (Reference pages 12-13)

6. The FDIC Energy Management Program will include performance measures, modeled after
the FEMP Program guidelines and in compliance with the National Energy Conservation Policy
Act. We do not see the benefit of establishing a separate budget for energy conservation.
Establishing a separate budget for energy conservation is found in Executive Order 13123, and is
encouraged by FEMP in an effort to gain funding approval at OMB and in Congress for energy
conservation projects planned by appropriated agencies. FDIC is not an appropriated agency.
Establishing a separate budget for energy conservation will place an undue burden on FDIC
accounting practices. FDIC has a budget structure for capital improvements, maintenance and
repair, utilities, and miscellaneous operating expenses that appropriately tracks expenditures by
category and project A separate budget line to account for energy conservation projects will be
confusing, will not capture all costs and savings, and will not assist in tracking multi-year energy
conservation initiatives. Many initiatives will be funded through task orders issued against
existing contracts, and it will be difficult to budget for these separately from the contract. FMS
does not believe the use of a specific energy management budget will help in the identification



                                                                                                    28
and prioritization of efficiency projects or in the tracking of energy specific projects. Even if we
had a separate budget, we would still have to create a separate tracking system to track multi-
year savings, non-monetary savings, and actual expenditures.

The Energy Audit, which FEMP will conduct for FDIC, will identify cost effective energy
conservation projects that will provide a return-on-investment over the next 10 years. FMS will
develop a multi-year plan to prioritize and implement these projects, and include them in our
annual budget requests. Budget line items that involve energy conservation initiatives will be
highlighted in the comment section of our budget submission.

FMS will develop a simplified method of identifying activities and projects in the Energy
Conservation Plan, including budget requirements and tracking expenditures. This will provide
reliable information to evaluate the tangible benefits and cost effectiveness of our energy
conservation efforts. This data will be used to prepare annual status reports that will encompass
multi-year strategies and progress. (reference Budgeting and Measuring Enhancements…page
14).

7. The Report notes that DOA’s 1999 Annual Performance Plan did not include energy
conservation (Page 14). DOA’s 2000 Annual Performance Plan includes the following objective:

                 Energy Conservation Program: Develop short and long term energy
                 conservation plans to optimize the efficiency of all utilities within the
                  FDIC owned buildings.

8. The FMS will pursue cost savings by competing utility service, particularly for gas. (reference
Page 18)

9. FMS is currently conducting a waste stream analysis in an effort to improve the recycling
program. It would be helpful to see the data used by OIG to develop their conclusions, and to
compare this data to the baseline data we are developing for our Energy Conservation Plan. The
Corporate Support Section is also conducting a pilot program testing use of recycled paper in
copiers. Results of the survey will be evaluated in May, 2000. A Recycling Directive has been
drafted, and the Office Supply Program Directive will be revised to include use of recycled
products. These Directives will be issued by June 30, 2000. (Reference assessing FDIC’s
recycling efforts, Pages 20-24).

10. Comments regarding specific recommendations (reference Enhancing FDIC’s Energy
Management and Conservation Efforts, page 25).

        a. Coordinate with the Legal Division to identify all laws and executive orders relating to
           energy management and conservation that affect Corporate functions and determine
           to which ones FDIC must comply and those with which it will voluntarily comply.

            Comments: The Legal Division has reviewed the National Energy Conservation
            Policy Act, 10CFR Parts 435 and 436 and numerous Executive Orders and issued
            opinions on whether FDIC is required to comply. They currently are reviewing the
            Resource Conservation and Recovery Act of 1976. FDIC is required to comply with
            the National Energy Conservation Policy Act and 10CFR Part 436. FDIC is not
            required to comply with the Executive Orders or 10CFR Part 435. FMS has
            determined that FDIC will comply with the spirit of Executive Order 13123 in
            developing our Energy Conservation Program, to the extent feasible and practicable.
            There are parts of the Executive Order that do not apply to FDIC operations and we
            will not comply with these sections. FDIC is required to comply with the National
            Energy Conservation Policy Act, and we will ensure our Program meets the spirit and
            intent of the law. The Legal Division review will be completed by April 30, 2000.




                                                                                                       29
b. Establish a task force involving all appropriate FDIC Divisions to create an energy
   management and conservation vision and program for the Corporation.

     Comments: We concur with this recommendation and we are proceeding to establish the task
     force, with support from the Department of Energy, Federal Energy Management Program
     (FEMP). The Task Force will be established by March 31, 2000.

c.   Appointing a management official to serve as a focal point for energy management
     and conservation to ensure the visibility of FDIC’s program.

     Comments: The Assistant Director, Facilities Management Section is responsible for
     the development of the FDIC’s Energy Management Program, and serves as a focal
     point for energy management and conservation. In addition, the Chief, Building
     Operations Unit serves on the FEMP Interagency Energy Management Task Force
     as FDIC’s representative.
     No further action is required.

d. Stimulating employee interest in energy management and conservation through an
   awareness program.

     Comments: Employee awareness will be an integral part of the Energy Management
     Plan for the FDIC. The target date for completing the Plan is December 31, 2000.

e. Developing a specific objective in the Annual Performance Plan that addresses
   improving energy efficiency and conservation at FDIC.

     Comments: This has been completed. The Annual Performance Plan for 2000
     includes a Performance Plan related to energy conservation.

f.   Creating an energy management plan to promote energy management and
     conservation and to measure expenditures and achievements.

     Comments: FMS is in the process of working with FEMP to develop a model Energy
     Conservation Program at FDIC. An integral part of the Program will be a specific,
     integrated Energy Management Plan. This Plan will be completed by December 31,
     2000.

g. Revisiting the Facilities Design Guide to determine whether additional guidance
   would be useful to promote energy management and conservation during the
   facilities planning process.

     Comments: Upon completion of the Energy Management Plan FMS will update the
     Facilities Design Guide. A revision to the Guide will be issued in 2001.

h. Evaluating the feasibility of the specific suggestions made by the EPA expert to
   enhance energy management and conservation at FDIC'’ headquarters facilities.

     Comments: Through a Memorandum of Understanding with DOE/FEMP we are
     conducting Energy Saving Audits of all Headquarters Owned Buildings. The
     comments of the EPA expert will be submitted for consideration to the contractor
     conducting the Audits. FMS plans to have the MOU in effect by March 31, 2000.

i.   Studying GSA’s cost analysis for natural gas to determine whether GSA would be a
     less costly alternative than FDIC’s current supplier and take appropriate action.

     Comments: FMS will contact GSA and pursue any cost savings for natural gas. An
     analysis of alternative gas utility providers will be completed by June, 2000. We are




                                                                                          30
     interested in reviewing any cost analysis information that OIG has related to this
     matter.

j.   Promoting energy efficiency in its leased facilities by including a preference for
     Energy Star buildings that could result in reduced operating costs for FDIC.

     Comments: FMS has discussed this matter with the Assistant Director, Leasing
     Section. The Leasing Section will explore the possibility of incorporating the EPA
     Energy Star Program into the leasing process. This will become part of the Energy
     Management Plan, which will be completed by December 31, 2000.

k.   Assessing the production of waste paper, aluminum and glass at headquarters to
     identify waste reduction opportunities and to establish baseline measures.

     Comments: We are conducting a waste stream analysis currently, and will use data
     from the analysis to develop baseline data and to improve the recycling program.
     Recycling will be part of the integrated approach to FDIC’s Energy Management
     Program.

l.   Increasing FDIC’s acquisition of recycled content products and energy efficient
     products by establishing annual targets for their purchase.

     Comments: Recycling will be part of the integrated approach to FDIC’s Energy
     Management Program. Revised policies and goals will be incorporated into the
     Energy Management Plan scheduled for completion by December 31, 2000. The
     Acquisitions Section, Corporate Services Section and Health, Safety and
     Environmental Unit will participate on the Task Force to develop the Program.




                                                                                          31
Appendix II: Management Response to Recommendations

This table presents management responses to recommendations in our report and the status of
management decisions. Management's written response to our report provided the information for
management decisions.



                                               Expected    Documentation That                     Management
 Rec.      Corrective Action: Taken or        Completion    Will Confirm Final         Monetary    Decision:
Number               Planned                     Date             Action               Benefits    Yes or No

   1      The Legal Division has              4/30/00      DOA 1/21/00 response        No         Yes
          completed reviewing certain laws                 to a draft of this report
          and executive orders pertaining
          to energy management and
          conservation and continues in its
          efforts.
   2      DOA is in the process of            3/31/00      Energy Management           No         Yes
          establishing a task force with                   Plan
          support from FEMP to create an
          energy management and
          conservation vision and
          program.
   3      The Assistant Director, FMS, is     Completed    DOA 1/21/00 response        No         Yes
          responsible for FDIC's Energy                    to a draft of this report
          Management Program.
   4      Employee awareness will be an       12/31/00     Energy Management           No         Yes
          integral part of the Energy                      Plan
          Management Plan for FDIC.
   5      The Annual Performance Plan for     Completed    DOA 1/21/00 response        No         Yes
          2000 includes an objective to                    to a draft of this report
          develop short and long term
          energy conservation plans to
          optimize the efficiency of all
          utilities within FDIC owned
          buildings.
   6      FMS is in the process of working    12/31/00     Energy Management           No         Yes
          with FEMP to develop a model                     Plan
          Energy Conservation Program at
          FDIC. An integral part of the
          program will be a specific,
          integrated Energy Management
          Plan.
   7      FMS will update the Facilities      2001         Updated Facilities          No         Yes
          Design Guide upon the                            Design Guide
          completion of the Energy
          Management Plan.
   8      The comments of the EPA expert      3/31/00      Memorandum                  No         Yes
          will be submitted for                            transmitting the
          consideration to the contractor                  comments to the
          conducting the energy saving                     contractor
          audits of the headquarters
          owned buildings.




                                                                                                         32
9    FMS will contact GSA to pursue      6/00       Results of              To be         Yes
     any cost savings for natural gas.              communication with      determined
                                                    GSA                     based on
                                                                            additional
                                                                            GSA
                                                                            information
                                                                            and further
                                                                            DOA study.
                                                                            OIG
                                                                            preliminary
                                                                            analysis
                                                                            indicated
                                                                            $28,000 per
                                                                            year.
10   The Leasing Section will explore    12/31/00   Energy Management       No            Yes
     the possibility of incorporating               Plan
     the EPA Energy Star Program
     into the leasing process.
11   DOA is currently conducting a       12/31/00   Energy Management       No            Yes
     waste stream analysis to develop               Plan
     baseline data and to improve the
     recycling program.
12   The Corporate Support Section is    5/00       Results of Pilot        No            Yes
     conducting a pilot program                     Program
     testing the use of recycled paper
     in copiers.
     A recycling directive has been      6/30/00    Updated Office Supply   No            Yes
     drafted and the Office Supply                  Program Directive.
     Program Directive will be revised
     to include the use of recycled
     products.




                                                                                                33
